BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-7837

September 10, 2019
Scott S. Harris, Clerk
Supreme Court for the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Adnan Syed v. Maryland, No. 19-227
Request for Extension

Dear Mr. Harris:
Please enter the appearance of undersigned counsel as Counsel of Record for
Respondent, the State of Maryland. The State of Maryland, by and through undersigned
counsel, pursuant to U.S. Sup. Ct. R. 30.4, respectfully requests an extension of time
within which to file the brief in opposition to petition for writ of certiorari in the abovecaptioned case through and including October 21, 2019.
Adnan Syed’s petition for writ of certiorari was docketed in this Court on
August 21, 2019. The brief in opposition to petition for writ of certiorari is currently due
September 20, 2019. An extension of this deadline is necessary based on undersigned
counsel’s vacation plans and existing workload. Counsel was on a planned vacation from
August 26, 2019 through August 30, 2019. Between the date Mr. Syed’s petition was
filed and the existing deadline for Maryland’s brief in opposition, undersigned counsel is
arguing in the Maryland Court of Appeals in Daniel Greene v. State of Maryland, No. 7,
Sept. Term, 2019, and in the Maryland Court of Special Appeals in State of Maryland v.
Derrick Rucker, No. 2824, Sept. Term, 2018, and Latoya Bonte Elzey v. State of
Maryland, No. 1131, Sept. Term, 2018. Counsel is also filing the brief of Respondent in
the Maryland Court of Appeals in Elijah Peterson v. State of Maryland, No. 14, Sept.
Term, 2019, and the brief of Appellee in the cases of Nathaniel Appleby-el v. State of
200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

September 10, 2019
Scott S. Harris, Clerk
Page 2
Maryland, No. 801, Sept. Term, 2018, and Richard Pinheiro v. State of Maryland, No.
3009, Sept. Term, 2018. For these reasons, undersigned counsel respectfully requests a
30-day extension of time in which to file the brief in opposition to petition for writ of
certiorari in Adnan Syed v. Maryland, No. 19-227, through and including Monday,
October 21, 2019.1
Respectfully submitted,
/s/
Carrie J. Williams
Assistant Attorney General
Maryland Office of the Attorney General
200 St. Paul Street
Baltimore, Maryland 21202
410-576-7837

CC:

Catherine E. Stetson
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
C. Justin Brown
Brown Law
1 Charles Street
Suite 1301
Baltimore, Maryland 21202

1

The 30th day is Sunday, October 20, 2019. Pursuant to Rule 30.1, Respondent has extended the deadline through
“the end of the next day that is not a Saturday, Sunday, federal legal holiday, or day in which the Court building is
closed.” U.S. Sup. Ct. R. 30.1.

